CAPITAL CASE EXECUTION SCHEDULED – JANUARY 12, 2021
No. _____

IN THE SUPREME COURT OF THE UNITED STATES

LISA MONTGOMERY, APPLICANT,
V.
WARDEN OF USP TERRE HAUTE, UNITED STATES OF AMERICA, RESPONDENTS.
APPLICATION FOR STAY OF EXECUTION

TO THE HONORABLE AMY CONEY BARRETT, ASSOCIATE JUSTICE OF THE
SUPREME COURT AND CIRCUIT JUSTICE FOR THE SEVENTH CIRCUIT:
Lisa Montgomery is scheduled to be executed on January 12, 2020, at 6:00 p.m.
Eastern. Mrs. Montgomery respectfully requests a stay of her execution pending this
Court’s disposition of her petition for a writ of certiorari.

MOTION FOR STAY OF EXECUTION
The district court properly entered a stay in this case, and the circuit should
not have vacated it. The circuit court made two errors in it’s Order vacating the
stay, discussed infra. Because the circuit was silent on almost all of the district
courts’s order, Mrs. Montgomery will focus primarily on the district court stay
which also ordered an evidentiary hearing.
Appellate courts’ power to vacate a stay entered by a lower court should be
reserved only for exceptional circumstances. See, e.g., Kemp v. Smith, 463 U.S.
1321, 77 L. Ed. 2d 1424 (1983) (Powell, J., Circuit Justice); O'Connor v. Board of
Education, 449 U.S. 1301 (1980) (Stevens, J., Circuit Justice). A lower court’s
decision is “deserving of great weight.” Commodity Futures Trading Commission
v. British American Commodity Options Corp., 434 U.S. 1316, 1319, 12 (1977)
(Marshall, J., Circuit Justice).
Where the lower court offered no reason for its decision to grant the stay
application ,” and “no plausible reason appeared from the record,” Wainwright v.
Booker, 473 U.S. 935 (1985), then vacating a stay may be appropriate. See also
Dugger v. Johnson, 485 U.S. 945 (1988)(O’Connor, joined by Rehnquist, C.J.,
dissenting)(“Because neither the District Court nor the Court of Appeals has
articulated an adequate legal basis for entering a stay in this case, I would grant
1

the State's application to vacate.”).
The lower court decision was reasoned, applied the applicable, controlling
law, and, after calling balls and strikes, the district court judge reasonably granted
a stay of execution and an evidentiary hearing on Mrs. Montgomery’s claims
under Ford v. Wainwright, 477 U.S. 399 (1986). Ford claims are not cognizable
until “execution is imminent,” Panetti v. Quarterman, 551 U.S. 930, 949 (2007),
meaning “about to happen,” not when it is convenient for the parties or the courts.
The district court’s decision reflected an adequate, indeed a compelling, legal
basis for entering a stay and providing for an evidentiary hearing; that decision
ought to be afforded great weight, as the district court did precisely what is
expected from district court judges.1
The Court finds [Petitioner’s] experts’ declarations satisfy the
required preliminary showing that Ms. Montgomery's current mental
state would bar her execution. Ford did not set a precise standard for
competency, Panetti, 551 U.S. at 957, and the concept of “rational
In deciding whether to stay an execution, the Court must consider: "(1)
whether the stay applicant has made a strong showing that [s]he is likely to
succeed on the merits; (2) whether the applicant will be irreparably injured absent
a stay; (3) whether issuance of the stay will substantially injure the other parties
interested in the proceeding; and (4) where the public interest lies." Nken v.
Holder, 556 U.S. 418, 434 (2009). "The first two factors . . . are the most critical."
Id. Before entering a stay, the Court must also consider "the extent to which the
inmate has delayed unnecessarily in bringing the claim. Nelson v. Campbell, 541
U.S. 637, 649-50 (2004). The government’s reliance on Bucklew v. Precythe, 139
S.Ct 1112 (2019).
1

2

understanding” is hard to define. Id. at 959. While there similarly are
no set criteria describing what constitutes a “substantial threshold
showing,” the record before the Court contains ample evidence
that Ms. Montgomery's current mental state is so divorced from
reality that she cannot rationally understand the governments
rationale for her execution. Dkt. 16-1, at 2, ¶ 17 (Dr. Kempke); dkt.
11-2 at 4, ¶ 6 (Dr. Porterfield); id. at 41 (Dr. Woods). See Panetti, 551
U.S. at 950 (finding that petitioner had made substantial threshold
showing); see id. at 970 (Thomas, J., dissenting) (noting that the
majority found the “threshold showing” satisfied with one unsworn,
one- page letter from a doctor and another one-page declaration from a
law professor, both relying on the petitioner's past medical history).2
Having reasonably applied the law to the facts, the lower court did not
abuse its discretion.
I. JURISDICTION
This Court’s authority to enter a stay is based upon 28 U.S.C. § 1651, in aid
of the Court’s jurisdiction.
II. EVIDENCE IN SUPPORT OF A THRESHOLD
SHOWING UNDER FORD
Dr. Kempke, and two other mental health experts, submitted declarations to
the district court. With respect to Dr. Kempke
1. I am a Board Certified psychiatrist, currently retired.
2. I served as a psychiatrist at the Carswell Medical Center (Federal
Bureau of Prisons) from February 2008 through September 2010.
The government argues the ultimate meritsof the Ford claim and conflates
that with the need for an evidentiary hearing
2

3

3. During the course of my employment, I was the treating
psychiatrist for Lisa Montgomery. Initially I saw her on the M-3
(mental health segregation) unit and later I treated her after she was
housed in the admin unit.
4. When Mrs. Montgomery arrived at Carswell, she carried a bipolar
diagnosis. She was medicated with Depakote but was not doing well
psychiatrically.
5. She presented as disheveled and unclean. I had a hard time getting
her to answer my questions or to come to the door to talk to me.
6. I initially thought that Mrs. Montgomery’s presentation was due to
depression over her conviction and death sentence, but I later learned
that was not the case. After we began appropriately medicating her
with antipsychotics, her affect, demeanor, and presentation changed
dramatically. The information I later learned about Mrs.
Montgomery’s social history reinforced my revised assessment: Mrs.
Montgomery’s presentation was not simply depression, but psychotic
depression.
7. I witnessed Mrs. Montgomery in an acute dissociative psychotic
state at least two times.
8. When I treated her, her psychosis primarily manifested as crying,
withdrawal, not responding to social cues, difficulty with
concentration and deliberation, poor understanding of what she read,
and hearing voices talking to her from the radio.
9. Mrs. Montgomery’s counsel have informed me that she has been
moved to death watch following the setting of her execution date.
10. They have described to me Mrs. Montgomery’s current conditions
of confinement, which are consistent with what I know to be the
suicide precautions used at Carswell.

4

11. Though BOP is currently ensuring that Mrs. Montgomery
showers three times a week, it is my understanding that she does so as
quickly as possible—generally in under the 2 minute timer in the
inmate shower—to avoid a prolonged re-experiencing of the
sensation of observation and vulnerability into which showering
recapitulates her. According to her lawyers, Mrs. Montgomery
endorses that showers always cause her to re-experience her
childhood violation. She reports crying in the shower, not because it
is a safe place to cry, but rather because the experience in the shower
itself is so scary that she cannot withstand it. This is consistent with
my observations when she exhibited extreme aversion to showering.
12. Mrs. Montgomery’s counsel have described Mrs. Montgomery’s
current functioning, including that Mrs. Montgomery hears her dead
mother’s voice and is having nightmares. She cannot describe either
the instructions of the auditory hallucinations or the nightmares,
because they are too terrifying.
13. Counsel has related that since October 16, 2020, Mrs.
Montgomery has experienced lapses of time, including more than one
that was commented upon by a guard who observed Mrs.
Montgomery sitting staring blankly for a prolonged period. Mrs.
Montgomery had not been aware of doing so. Mrs. Montgomery has
described other lapses, including reading several pages of a book and
realizing she could not remember any of what she read, and writing a
letter and then not being able to remember doing it. Mrs. Montgomery
reports being unsure of what is real—saying that without access to
her most trusted friend, she is unsure of what is happening to her, so
she cannot assess whether her perceptions are skewed or not.
14. Per counsel, Mrs. Montgomery reports feeling outside
herself—as if watching from a distance, and the sensation of existing
in a house in her mind as she did when she was raped as a child. The
fact that Mrs. Montgomery is re-experiencing the mental detachment
that previously allowed her to survive chronic abuse and gang rape is
clinically significant and reflects decompensation and a detachment
from reality.
5

15. Counsel have described that Mrs. Montgomery believes she has
received messages from God in a dot-to-dot drawing that she was
provided by the BOP. Mrs. Montgomery’s counsel have described
Mrs. Montgomery finding messages in a feather, a sensation of clouds
parting and warmth from the sun, and in seeing the moon in a location
she found uncanny. Without more information, it is impossible to
know whether these were true hallucinations or delusions of
reference. In either case, these indicate that Mrs. Montgomery is
psychotic.
16. The difficulties in reality testing described above are similar to
those Mrs. Montgomery exhibited before I prescribed Risperdal; this
means the beneficial effect of the Risperdal is insufficient to control
her symptoms.
17. It is my professional opinion to a reasonable degree of medical
certainty that, based on my knowledge of Mrs. Montgomery’s history
of psychosis and the psychotic symptoms reported by counsel, she is
currently unable to rationally understand the government’s rationale
for her execution.
App. ___, Reply to Government Response,dkt.number ___/3
A. Mrs. Montgomery’s Childhood
The district court determined that while “Ms. Montgomery's current mental
state is the issue in this case, her past trauma and diagnoses are relevant because
Paragraphs 9-17 of this declaration describe Mrs. Montgomery’s current
mental functioning, as do affidavits fro Dr. George Wood’s and Dr. Katherine
Porterfield’s declaration. Based upon these conditions and their fact to face
knowledge of her, each formed current expert opinions about Mrs. Montgomery.
The circuit was thus in error to write that these evaluations depend upon
“extremely outdated evaluations” and “stale observations that cannot support a
claim abut her current mental state.” Order at 3. There is nothing stale about the
information relied upon by these experts.
3

6

her clinical history informs the experts' opinions regarding her current mental state.
Ms. Montgomery's childhood trauma was extreme and "consistent with torture."
Dkt. 11-12 (Woods Decl. 2020). Her mother and stepfather were physically and
emotionally abusive. Dkt. 11-5 at 42–43 (Porterfield Decl. 2016). Her mother
found humor in the fact that Ms. Montgomery's first words as a toddler were,
"[d]on't spank me." Id. Her stepfather sexually assaulted her on a weekly basis for
years. Id. at 43; see also Montgomery, 635 F.3d at 1080. Her mother's emotional
abuse included sadistic acts such

as

taping Ms. Montgomery's mouth shut

with duct tape for speaking and beating the family dog to death in front of Ms.
Montgomery and her siblings. Id. at 43–44. Order at 5-6
B. Diagnosis and treatment in prison.
The prison psychiatrist who treated Ms. Montgomery in the three
years preceding her trial diagnosed her with depression, bipolar
disorder, and PTSD. Dkt. 11-10 at 2, 14–15.4 At trial, medical experts
from both sides agreed that Ms. Montgomery suffered from
depression, borderline personality disorder, and PTSD. United States
v. Montgomery , 635 F.3d, 1074, 1082 (2011)(direct appeal). One of
Ms. Montgomery's experts, Dr. Logan, characterized Ms.
Montgomery's illness as depressive disorder which "at times included
psychotic features such as hallucinations." Dkt. 11-6 at 80 (Logan
[footnote not in order] Dr. McCandless visited with Mrs. Montgomery 62
times in 2005 and a total of 105 times over three years. She ultimately concluded
Mrs. Montgomery’s “symptoms reflected a diagnosis...[o]f psychosis.” TT. 2144.
See also Order at 38, App. A (Dr. McCandless diagnosed “bipolar disorder and
psychosis.”)(App.A)
4

7

Report).
After her trial, Ms. Montgomery was placed at the Federal Medical
Center, Carswell (“FMC Carswell”), a federal prison in Texas for
female inmates with special mental health needs. Dr. Camille
Kempke, Ms. Montgomery's treating psychiatrist at FMC Carswell
between 2008 and 2010, witnessed Ms. Montgomery in “an acute
dissociative psychotic state” at least twice. Dkt. 16-1 at ¶ 2–3. Id.
Two psychological experts hired by Ms. Montgomery's team in
support of her § 2255 proceedings recounted the key role
dissociation plays in Ms. Montgomery's mental functioning and
provided declarations in support of the motion to stay in this action.
Dr. Katherine Porterfield, who examined Ms. Montgomery in 2016,
is a clinical psychologist who has worked with survivors of torture
and trauma for more than two decades. Dkt. 11-12 at 2 (Porterfield
Decl. 2020); dkt. 11-5 at 39 (Porterfield Decl. 2016). In her opinion,
Ms. Montgomery suffers from complex post-traumatic stress
disorder5 (CPTSD), complex partial seizures and brain impairment,
depression, and bipolar disorder. Dkt. 11-12 at 2. Ms. Montgomery's
“CPTSD is characterized by severe dissociative symptoms.” Id. As
Dr. Porterfield explained, “[d]issociation is a process of the human
nervous system in which neurochemical reactions to excessive stress
lead to alterations in consciousness and perceptions of senses, the
environment, and the self. Dissociation represents a lowering of
consciousness, sometimes to the point of actual rupture of
consciousness and awareness.” Id. at 2–3 (emphasis added).
Dr. Porterfield described the dissociative symptoms prevalent in
Ms. Montgomery's functioning as follows: (1) confused thought
5

CPTSD is not a condition that is recognized by the Diagnostic and Statistical Manual of
Mental Disorders. According to Dr. Porterfield, it is a “diagnostic category proposed for
inclusion in the World Health Organization International Classification of Diseases, 11th
version, and arrived at by consensus among a panel of international trauma experts.” Dkt. 11-5 at
48. Because dissociative symptoms are included in the criteria for PTSD—which experts on both
sides agree Ms. Montgomery has—the Court pays more attention to the symptoms described by
Ms. Montgomery's experts rather than the diagnostic label of CPTSD or PTSD.
8

process— “frequently confused thinking that indicated questions
about the reality of certain events and perceptions in her past”; (2)
disengagement—feeling “out of it” or as if she was in her own world
and would forget what day it was or how she got places; (3)
depersonalization—feeling detached from her own body or like she
does not belong in her body; (4) derealization—feeling her surroundings are
not familiar in some cases, not real; (5) identity dissociation—feeling like
she has different people inside herself or like there are people inside who
are talking to her; (6) memory disturbance—experiencing blank spells or
loss of time; and (7) emotional constriction—having restricted or limited
emotional experience.
Dkt. 11-5 at 48–54; Order at
Dr. George Woods, a physician with a specialty in neuropsychiatric
consultations, conducted clinical evaluations of Ms. Montgomery, which
included interviews and assessments of Ms. Montgomery's neurological
status, in January and February 2013 and July and August 2016. Dkt. 11-6
at 1; dkt. 11-12 at 34. He observed that Ms. Montgomery has cerebellar6
dysfunction and other brain impairments. Dkt. 11-6at 5. Ms.
Montgomery's symptoms consistent with impairment of the cerebellum
include "distractibility, hyperactivity, impulsiveness, disinhibition, anxiety,
irritability, ruminative and obsessive behaviors, dysphoria, and depression,
tactile defensiveness d sensory overload, apathy, and childlike behavior."
Id. Dr. Woods also diagnosed Ms. Montgomery with Bipolar I Disorder,
Most Recent Episode Depressed, Severe with Psychotic Features." Id. at 19.
Ms. Montgomery's brain impairments, exposure to extreme trauma, mood
disorder, and psychosis "interact synergistically" preventing her from being
able to act "rationally and logically." Id. at 24.
According to Dr. Woods, prior to the announcement of her execution date,
the symptoms of Ms. Montgomery's illnesses had largely been controlled
at FMC Carswell, due to three interactive factors: "1) a highly structured

[footnote 2 in Order] As Dr. Woods explained, "The cerebellum is a region
of the brain that plays an important role in motor control and some cognitive
functions such as attention and language and in regulating fear and pleasure." Id.
6

9

and predictable environment; 2) a stable community wherein she is largely
surrounded by supportive female companions and where her exposure to
the threat of sexual violence is greatly reduced; and 3) careful titration and
monitoring of her regime of antipsychotic medications." Dkt. 11-12 at 35.
The impact of her medication, in particular Risperdal, [footnote omitted]
an antipsychotic medication, when combined with a supportive community
allowed her to function more successfully but did not resolve her
underlying conditions. Id. at 40.
Order at 6-8.
C. Current medical condition
The circuit court completed ignored this:
On October 16, 2020, the warden read Ms. Montgomery her execution
warrant and she was removed from her community and activities and placed
in a suicide cell. Dkt. 11-12 at 40–41. Dr. Woods believes that this disruption
to her routine and the stress of learning of her impending execution have
resulted in a resurgence of her symptoms. Id. at 35, 39.
Ms. Montgomery's attorneys have reported the following symptoms or
behaviors:
auditory hallucinations with self-attacking content (hearing her abusive
mother's voice);
sleep disturbances and nightmares of past sexual violence that are so
disturbing she is unable to recount them;
disruption in bodily functions related to elimination due to her perception of
male guards' observation of her;
distorted sense of reality (uncertainty about whether the infant she
kidnapped is really her child; being unsure of what is real without
access to her most trusted friend to confirm reality);
religious delusions/hallucinations (believing God spoke with her
10

through connect-the-dot puzzles, finding messages in a feather,
seeing the moon in a location she found uncanny);
gaps in consciousness of time passing due to periods of dissociating
(staring blankly for prolonged periods without awareness, writing
letters and then forgetting doing so);
alterations in perception of the external world (feeling outside of
herself as if she is "existing in a house in her mind");
inappropriate affect, irritability, and emotional description; and
distorted perceptions of reality evincing paranoia (believing a male
psychologist stated to her, "Don't you just want to say 'fuck the government
and kill yourself?'").
Dkt. 11-2 at 3–4; dkt. 16-1.
Dr. Porterfield, Dr. Woods, and Dr. Kempke all testify that these behaviors
indicate current psychosis. 11-12 at 3–4 (Dr. Porterfield: "manifestations of
dissociation, disturbed thinking and likely psychosis"); id. at 39 (Dr. Woods:
"a reemergence of psychotic symptomology" indicating that Ms. Montgomery
has "lost contact with reality"); Dkt. 16-1 (Dr. Kempke: observations "indicate
that Mrs. Montgomery is psychotic").” Order at 19
Finally, “[b]ased on reported observations, review of past materials, review
of BOP medical records, and, in Dr. Kempke's case, her past observation
of Ms. Montgomery experiencing psychosis, all three experts opine that
Ms. Montgomery is presently unable to rationally understand the government'
rationale for her execution as required by Ford. Dkt. 11-12 at 4 (Dr. Porterfield),
11

41 (Dr. Woods); dkt. 16-1 at ¶ 17 (Dr. Kempke).
D. Current condition satisfies threshold showing
The respondent argues that none of Ms. Montgomery's experts'
conclusions are reliable because they have not interviewed Ms.
Montgomery in her current condition. But experts may rely on the
statements of laypeople in forming opinions about Ms. Montgomery's
mental state. See, e.g., United States v. Brownlee, 744 F.3d 479, 481!82
(7th Cir. 2014) ("[A]n expert witness is permitted to rely on any
evidence, whether it would be admissible or inadmissible if offered by a
lay witness, that experts in the witness's area of expertise customarily
rely on."). Indeed, each expert acknowledged that a direct interview
would be useful for diagnosis, but that the descriptions of Ms.
Montgomery'scurrent behavior, when coupled with their past treatment
or evaluations, was sufficient to allow them to reach an opinion to a
reasonable degree of scientific (or medical) certainty. Dkt. 11-12 at 4, ¶
6; id. at 41; dkt. 16-1 at 2, ¶ 17.
The Court finds these experts' declarations satisfy the required
preliminary showing that Ms. Montgomery's current mental state would
bar her execution. Ford did not set a precise standard for competency,
Panetti, 551 U.S. at 957, and the concept of "rational understanding" is
hard to define. Id. at 959. While there similarly are no set criteria
describing what constitutes a "substantial threshold showing," the
record before the Court contains ample evidence that Ms.
Montgomery's current mental state is so divorced from reality that she
cannot rationally understand the government's rationale for her
execution. Dkt. 16-1, at 2, ¶
THERE HAS BEEN NO UNDUE DELAY
Ford claims cannot be brought before an execution is imminent. Panetti v.
Quarterman, 551 U.S. 930, 949 (2007). And an individual could decompensate
into Ford incompetence at any time before a scheduled execution. The circuit
12

court’s reliance on Bucklew v. Precythe, 139 S.Ct. 1112 (2019) is thus
misplaced. Bucklew’s claim could have beenbrought much earlier, but Mrs.
Montgomery’s could not.
Again, the district court was correct:
The government's primary equitable argument is that counsel should have
filed this claim and motion for stay sooner. Indeed, "last-minute filings
that are frivolous and designed to delay executions can be dismissed in
the regular course." Panetti, 551 U.S. at 946. But counsel's filing is not
frivolous. As discussed elsewhere in this order, Ms. Montgomery has
been diagnosed with physical brain impairments and multiple mental
illnesses, and three experts are of the opinion that, based on conduct and
symptoms reported to them by counsel, Ms. Montgomery's perception
of reality is currently distorted and impaired.
Additionally, the timing is not unreasonable given Ms. Montgomery's
deterioration, this case's procedural history and what's at
stake. Ms. Montgomery's condition began to devolve when the
government first announced her execution date. But within a month, the
execution was stayed. Counsel believed, and the District of Columbia
District Court agreed, that the January 12 execution date was unlawful.
Not until January 1, 2021, was the January 12 execution date relatively
set in stone, and counsel filed this petition one week later. It is also
worth noting that a brief stay of execution was initially granted to
provide counsel time to recover from debilitating COVID-19 symptoms
that included extreme fatigue, impaired thinking and judgment, and
inability to concentrate. See Montgomery v. Barr, No. 20-3261 (D.D.C.
Nov. 19, 2020), 2020 WL 6799140 at *7.
While the Court is mindful about the possibility of strategic litigation,
neither that possibility or the delay outweigh the need for the stay when
counsel has made a threshold showing that Ms. Montgomery is presently
incompetent to be executed. Madison, 139 S. Ct. at 727 ("Similarly, Ford
and Panetti stated that it 'offends humanity' to execute a person so
13

wracked by mental illness that he cannot comprehend the 'meaning and
purpose of the punishment.'").
Order at 24.

MRS. MONTGOMERY’S DUE PROCESS RIGHTS ARE VIOLATED WHEN
COUNSEL AND EXPERT HAVE DONE ALL THEY CAN DO UNDER PANDEMIC
CONDITIONS

The circuit court did not address this
This Court insists
upon unfettered presentation of relevant information, before the final
fact antecedent to execution has been found....[C]onsistent with the
heightened concern for fairness and accuracy that has characterized our
review of the process requisite to the taking of a human life, we believe
that any procedure that precludes the prisoner or his counsel from
presenting material relevant to his sanity or bars consideration of that
material by the factfinder is necessarily inadequate.
Ford, 477 U.S. at 414 (plurality decision)(citation omitted)(emphasis added).
The right to counsel and to experts to assist in gathering and presenting material
relevant to incompetence to be executed claims is indisputable. When
developing evidence about a federal constitutional violation, particularly when
the evidence would at least temporarily stop a person from being executed,
cannot turn on arbitrary considerations. Unlike other federal constitutional

14

challenges,7 a Ford claim is not cognizable until “execution is imminent,”
Panetti, 551 U.S. at 949, meaning “about to happen.”8 When an execution
becomes “immediate,” individuals can be at risk of deteriorations in their mental
states. Cf. Panetti, 551 U.S. at 943. Thus, now is when mental health experts
would need to conduct the most meaningful evaluations of Mrs. Montgomery.
Appointed counsel and their experts are unable to evaluate Mr. Montgomery
face-to-face--without risking their lives.9 Enforcement of the Constitution

For example, ineffective assistance of counsel (Strickland v. Washington,
466 U.S. 668 (1984)) and government suppression of material exculpatory
evidence (Brady v. Maryland, 373 U.S. 88 (1963)) claims must be brought in a
first 2255 proceeding.
7

See Black’s Law Dictionary, Ninth Ed., 2009, Garner, B., ed., p. 450
(“imminent danger. (16c) 1. An immediate, real threat to one's safety that justifies
the use of force in self-defense.”).
8

Mrs. Montgomery’s attorneys Harwell and Henry contracted Covid
precisely because they traveled to and met with Lisa Montgomery. And Dr.
Woods is
9

73 years of age and am considered at high risk of COVID-19
infection and at a much-heightened risk of complications from
infection. I also have several underlying conditions in addition to my
age which require me to be extra vigilant including that I am currently
in treatment for prostate cancer which necessitates on-going
immunosuppressant therapy. My doctor has ordered me not to travel
due to my health concerns (regardless of the pandemic) for at least 4
months, depending upon potential effects of hormonal, antiandrogen,
and immunotherapy.
15

cannot be suspended because of a deadly virus.10 Habeas corpus “protects the
tights of the detained by affirming the duty of the Judiciary to call the jailer to
account...The Laws and Constitution are designed to survive, and remain in
force, in extraordinary times.” Boumediene V. Bush, 533 S.Ct. 723, 739-40,
743, 754, 798(2008)(emphases added).
Terre Haute USP, where Mrs. Montgomery is scheduled for execution,
recently became the most COVID-19 infected institution in the federal prison
system, with 281 active inmate cases. 11 That number has risen to 344 active
inmate cases.12 The numbers are likely higher than what the BOP is reporting,
as a result of an ineffective testing campaign by the BOP.13 In the entire Terre
Haute campus, the BOP lists 357 inmates and 21 staff members who are
App. F. Dr. Porterfield also cannot travel. App. F.
10

On January 7, 2021, almost 4,100 people died in the United States from Covid. NYT,
1/8/21, at 1.

Lisa Trigg, “COVID-19 soars at Terre Haute federal prison complex; death row
inmates infected” Terre Haute, Ind. Tribune-Star, Dec. 22, 2020 (last accessed Dec. 29,
2020).
11

12

https://www.bop.gov/coronavirus/index.jsp (last accessed Jan. 2, 2021).

See Trigg, supra, at fn. 13; See also CDC, Mass Testing for SARS-CoV-2
in 16 Prisons and Jails — Six Jurisdictions, United States, April–May 2020,
available at https://www.cdc.gov/mmwr/volumes/69/wr/mm6933a3.htm (accessed
Sep. 2, 2020).
13

16

currently positive for COVID-19, with a total of 736 inmates having recovered
from COVID-19, across the campus. 14 At Terre Haute FCI, 13 inmates and 18
staff members currently are infected with COVID-19.15 Nationwide, there are
7,220 federal inmates and 1,714 BOP staff who have confirmed positive test
results for COVID-19, with 179 federal inmate deaths and 2 BOP staff member
death attributed to COVID-19.16
While the BOP has attempted to reduce the spread of the virus, it continues
to ravage the federal prison system and the rate of infection is far higher within
the BOP compared to the community at large. In addition, while a seemingly
low percentage of inmates have contracted COVID-19 in comparison to the total
population of inmates, the virus is highly contagious and once an infection
occurs in a prison, it is extremely hard to contain.17

14

https://www.bop.gov/coronavirus/index.jsp (last accessed Jan. 2, 2021).

Id. The BOP reported numbers, located on the BOP's COVID-19 historic
dashboard, shows a massive spike in cases at Carswell at the beginning of July and
then in late July, and 35 current cases. Counsel has reason to believe the numbers
are much higher. The Carswell testing data shows no meaningful numbers of
testing after the late July spike in cases.
15

16

Id.

See https://www.hopkinsmedicine.org/health/conditions-anddiseases/coronavirus/first-andsecond-waves-of-coronavirus (accessed
October 26, 2020)
17

17

The federal prison are unable to protect visitors to inmates. Under these
extraordinary circumstances, it would violate Due Process to execute Mrs.
Montgomery.
Respectfully submitted,
Kelley J. Henry
Supervisory Asst. Fed. Public Defender
Amy D. Harwell
Asst. Chief, Capital Habeas Unit
Office of the Federal Public Defender
Middle District of Tennessee
810 Broadway, Suite 200
Nashville, Tennessee 37203
Phone: (615) 736-5047

Lisa G. Nouri
2526 Holmes Street
Kansas City, Missouri 64108
Phone: (816) 471-1000
lisanouri_atty@hotmail.com
18

BY:/s/ Kelley J. Henry
Counsel for Lisa Montgomery

CERTIFICATE OF SERVICE

I, Kelley J. Henry, certify that a true and correct copy of the foregoing was
served via the court’s CM/ECF filing system which served all registered filers
by email.

/s/ Kelley J. Henry
Counsel for Lisa Marie Montgomery

19

